                                                              O FFICE OF A UDIT S ERVICES , R EGION III
                                                                P UBLIC L EDGER B UILDING , S UITE 316
                                                                   150 S. I NDEPENDENCE M ALL W EST
                                                                             P HILADELPHIA , PA 19106

May 24, 2012

Report Number: A-03-10-00201

Ms. Cynthia B. Jones
Director
Virginia Department of Medical Assistance Services
600 East Broad Street, suite 1300
Richmond, VA 23219

Dear Ms. Jones:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Virginia’s Buy-In of Medicare Part B Premiums
for Medicaid Beneficiaries from January 2008 Through December 2009. We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Leonard Piccari, Audit Manager, at (215) 861-4493 or through email at
Leonard.Piccari@oig.hhs.gov. Please refer to report number A-03-10-00201 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Cynthia B. Jones


Direct Reply to HHS Action Official:

Ms. Jackie Garner Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF VIRGINIA’S BUY-IN OF
       MEDICARE PART B
    PREMIUMS FOR MEDICAID
BENEFICIARIES FROM JANUARY 2008
   THROUGH DECEMBER 2009




                        Daniel R. Levinson
                         Inspector General

                            May 2012
                          A-03-10-00201
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

“Dual eligibles” are low-income individuals who are eligible for benefits under both Medicare
and Medicaid because they are either elderly or disabled. Section 1843 of the Social Security
Act allows State Medicaid programs to enroll certain dual eligibles in the Medicare Part A and B
programs and to pay the monthly premiums on behalf of those individuals. Medicaid generally
reimburses the State for the premiums at the Federal Medical Assistance Percentage rate.

In Virginia, the Department of Medical Assistance Services (State agency), is responsible for
administering the Medicaid program. For the period January 2008 through December 2009, the
State agency paid $338 million for Part B premiums on behalf of Medicaid beneficiaries. Of the
$338 million it paid for premiums, the State agency claimed $306 million as eligible for a
Federal share of $168 million.

OBJECTIVE

Our objective was to determine whether the State agency claimed a Federal share for Medicare
Part B premiums it paid on behalf of Medicaid beneficiaries in accordance with Federal
requirements.

SUMMARY OF FINDING

The State agency generally claimed a Federal share for Medicare Part B premiums it paid on
behalf of Medicaid beneficiaries in accordance with Federal requirements. However, the State
agency incorrectly claimed $15,834 (Federal share) for 19 beneficiaries. This occurred because
the State agency’s Medicaid Management Information System reports did not accurately identify
the proper buy-in codes for some beneficiaries under the Railroad Retirement system and the
State agency did not correct, or have CMS correct, the errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $15,834 to the Federal Government,

   •   refund any overpayments claimed for railroad retirement beneficiaries before and after
       our audit period, and

                                               i
   •   assure that beneficiaries under the Railroad Retirement system are claimed correctly.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
described corrective actions that it had taken to address our recommendations. The State
agency’s comments are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Medicaid’s Role in Paying Medicare Part B Premiums .......................................1
              United States Railroad Retirement Board .............................................................1
              Administering the Medicaid Buy-In Program ......................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope .....................................................................................................................2
               Methodology .........................................................................................................3

FINDING AND RECOMMENDATIONS ................................................................................3

          STATE MEDICAID AGENCY CLAIMED EXCESS FEDERAL SHARE ...................4
               Federal Requirements ...........................................................................................4
               Buy-in Codes For Railroad Retirement Beneficiaries ..........................................4

          ACTION TAKEN .............................................................................................................4

          RECOMMENDATIONS ..................................................................................................4

          STATE AGENCY COMMENTS .....................................................................................5

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION
BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Virginia, the Department of Medical
Assistance Services (State agency), is responsible for administering the Medicaid program.

Medicaid’s Role in Paying Medicare Part B Premiums

“Dual eligibles” are low-income individuals who are eligible for benefits under both Medicare and
Medicaid because they are either elderly or disabled. Section 1843 of the Act allows State
Medicaid programs to enter into an arrangement with CMS known as the buy-in program. Under
the buy-in program, participating State Medicaid programs enroll certain dual eligibles in the
Medicare Part A (hospitalization) and B (supplemental insurance) programs and pay the monthly
premiums on behalf of those individuals. In Virginia, the State agency, through the Virginia
Department of Social Services, and local social service departments determine eligibility for
Medicaid based upon household income and circumstances. The State agency provides
Medicaid buy-in assistance to certain categories of eligible beneficiaries defined in section
1902(a)(10)(E) of the Act.

Monthly Medicare Part A and B premiums the State pays on behalf of individuals enrolled under
State buy-in agreements are considered vendor payments and most are reimbursed under
Medicaid at the Federal Medical Assistance Percentage (FMAP). The FMAP is State-specific
and calculated pursuant to section 1905(b) of the Act. For the quarters ending March 2008
through December 2009, Virginia’s FMAP ranged from 50 percent to 61.59 percent for all
eligibility codes except Qualified Individuals, for which the FMAP is 100 percent.

United States Railroad Retirement Board

The United States Railroad Retirement Board is an independent agency in the executive branch
of the United States Government created in 1935 to administer a social insurance program
providing retirement benefits to the country's railroad workers. In connection with the retirement
program, the Railroad Retirement Board has administrative responsibilities under the Social
Security Act for certain benefit payments, including railroad workers' Medicare coverage. States
may receive a Federal share for Part B premium payments made for dual eligible low-income
railroad retirement beneficiaries.

Administering the Medicaid Buy-In Program

At the Federal level, CMS has overall responsibility for administering the buy-in program. CMS
maintains a master file that contains relevant information for beneficiaries eligible for buy-in.
                                                1
The master file identifies individual beneficiaries by their unique Medicare health insurance code
(HIC) number. For beneficiaries eligible for Social Security, the HIC consists of the
beneficiary’s 9-digit social security number plus a suffix. For beneficiaries eligible for the
railroad retirement program, the Medicare HIC is a 6-digit or 9-digit railroad retirement number
plus a prefix. 1 CMS uses the buy-in master file to prepare monthly billing notices for the States’
payment of beneficiaries’ Part A and B premiums and to provide the State agency with electronic
billing files that identify the Federal reimbursement that States may claim.

States are responsible for establishing internal procedures and systems to identify individuals
eligible for buy-in, to communicate this information to CMS, and to respond to actions taken by
CMS on individual cases. Accordingly, Virginia codes the eligibility status for premium
payment assistance using the State’s Aid Category codes. This information is entered into the
Medicaid Management Information System (MMIS), using both a beneficiaries’ State
Identification number and Federal Medicare HIC number. The MMIS groups the various Aid
Categories into CMS’s buy-in codes. CMS’s buy-in codes identify the level of Federal
reimbursement the State may claim for each beneficiary. The State Agency communicates
changes in buy-in eligibility to CMS through the monthly reports generated by the MMIS.

The State agency is responsible for the accuracy of the beneficiaries’ eligibility status and is
required to routinely update eligibility information in the CMS master file. If the information in
the systems is erroneous, it is the State agency’s responsibility to correct, or have CMS correct,
the errors.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed a Federal share for Medicare
Part B premiums it paid on behalf of Medicaid beneficiaries in accordance with Federal
requirements.

Scope

For the period January 2008 through December 2009, the State agency paid $338 million for Part
B premiums on behalf of Medicaid beneficiaries. Of the $338 million it paid for premiums, the
State agency claimed $306 million as eligible for a Federal share of $168 million.

Our review of internal controls was limited to obtaining an understanding of the State agency’s
procedures for the following: determining Medicare buy-in eligibility, identifying and reporting
to CMS individuals in eligible buy-in categories, recording and paying Medicare premiums as
billed by CMS, and claiming a Federal share as applicable. We conducted fieldwork at the State
Medicaid agency in Richmond, Virginia from March through October 2010.


1
 During 1964 the Railroad Retirement Board stopped issuing 6-digit HIC numbers and began using social security
numbers with the prefixes.

                                                       2
Methodology

To accomplish our audit objective, we:

   •   reviewed the Federal and State regulations, policies, and procedures related to the
       Medicaid buy-in program, including the CMS State Medicaid Manual, the CMS State
       Buy-In Manual, and Virginia’s Buy-In Agreements;

   •   held discussions with Virginia’s State Auditors;

   •   interviewed personnel from CMS, the State agency, and the State’s fiscal agent;

   •   obtained electronic billing files from the State agency and analyzed the monthly Part B
       premiums for the State’s Part B buy-ins;

   •   obtained and analyzed the financial records for all categories of Part B premiums
       recorded monthly by the State agency;

   •   obtained and compared CMS’s monthly Summary Accounting Statements (billing
       notices) for Part B premiums to the claims for Federal share and to the State agency wire
       transfer documents;

   •   reconciled the Federal share claimed by the State agency to the Federal share that should
       have been claimed based on the buy-in eligibility codes in the CMS buy-in master file;
       and

   •   obtained a file of all MMIS transactions for beneficiaries that the State claimed for buy-in
       during our audit period.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

The State agency generally claimed a Federal share for Medicare Part B premiums it paid on
behalf of Medicaid beneficiaries in accordance with Federal requirements. However, the State
agency incorrectly claimed $15,834 for 19 beneficiaries. This occurred because the State
agency’s MMIS reports did not accurately identify the proper buy-in codes for some
beneficiaries under the Railroad Retirement system and the State agency did not correct, or have
CMS correct, the errors.




                                                3
STATE MEDICAID AGENCY CLAIMED EXCESS FEDERAL SHARE

Federal Requirements

Federal Regulations (42 CFR §§ 407.40 to 407.42) allow States to enroll individuals who are
eligible for benefits under both the Medicare and Medicaid programs in the Medicare Part B
program. Federal regulations (42 CFR § 431.625(d)) also state that States may claim Federal
reimbursement for certain individuals if these recipients are receiving cash assistance under
specified Federal programs or if they meet certain exceptions. The State Buy-In Manual requires
States to establish internal procedures and systems to identify individuals eligible for buy-in, to
communicate that information, and to respond to action taken by CMS on individual cases.
CMS has designed buy-in codes so that States can identify the category of assistance for each
beneficiary. The States are responsible for the accuracy of the buy-in codes. 2

Buy-in Codes For Railroad Retirement Beneficiaries

The State Agency received $15,834 in improper Federal reimbursements because reports
generated by the MMIS and submitted to CMS for billing did not properly identify the buy-in
eligibility code for 19 railroad retirement beneficiaries. The State agency claimed:

      •    $18,332 in overpayments for 17 beneficiaries and

      •    $2,498 in underpayments for 2 beneficiaries.

These errors occurred because of a processing flaw in the MMIS system. The State agency
properly coded changes to the Aid Category for each beneficiary. However, the MMIS system
did not recognize the changes for railroad retirement beneficiaries and therefore did not group
them into the proper buy-in eligibility codes. The State agency did not identify the errors and
therefore did not correct them or have CMS correct them.

ACTION TAKEN

State agency officials said that these errors continued after our audit period and indicated they
would reduce the Federal share for these and other beneficiaries pending the results of our
review. The State agency also reviewed railroad retirement beneficiaries for the month of June
2010 and found $1,565 in Federal reimbursement it should not have claimed: $1,701 in
overpayments for 25 beneficiaries and $136 in underpayments for 2 beneficiaries.

RECOMMENDATIONS

We recommend that the State agency:

      •    refund $15,834 to the Federal Government,

2
    CMS State Buy-In Manual, Pub. No. 24, chapter 2, section 200(F) and chapter 4, section 410.

                                                          4
   •   refund any overpayments claimed for railroad retirement beneficiaries before and after
       our audit period, and

   •   assure that beneficiaries under the Railroad Retirement system are claimed correctly.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
described corrective actions that it had taken to address our recommendations. The State
agency’s comments are included in their entirety as the Appendix.




                                               5
APPENDIX
                                                                                     Page 1 of 2
                              APPENDIX: STATE AGENCY COMMENTS




                        COMMONWEALTH of VIRGINIA
CYNTHIA B. JONES              Department ofMedical Assistance Services               SUITE 1300
DIRECTOR                                                                             600 EAST BROAD STREET
                                                                                     RICHMO"JD. VA 23219
                                                                                     8041786-7933
                                                                                     800/343-0634 (TOD)
                                                                                     www.dmas.virginia.gov

                                            April 16,2012

        Mr. Stephen Virbitsky
        Regional Inspector General for Audit Services
        Department of Health and Human Services
        Office ofInspector General, Audit Services
        The Public Ledger Building, Suite 316
        150 South Independence Mall West
        Philadelphia, P A 19106

        RE: Draft Audit Report Number A-03-1O-00201

        Dear Mr. Virbitsky:

        Thank you for your letter dated March 15,2012, providing the Department of Medical
        Assistance Services (DMAS) the opportunity to review and comment on the Department
        of Health and Human Services, Office ofInspector General (OIG) draft report number A­
        03-10-00201 entitled "Review of Virginia's Buy-In of Medicare Part B Premiums for
        Medicaid Beneficiaries from January 2008 Through December 2009". We concur with
        your finding and will continue corrective action as indicated in the response below.

        OIG Recommendation

        The OIG summary of findings concluded that Virginia incorrectly claimed federal funds
        for 19 Railroad Beneficiaries (RRB) in the amount of$15, 834. The OIG recommended
        that: 1) Virginia refund the $15,834 in overpayments, 2) Virginia refund any
        overpayments claimed for the period after the audit period, and ensure that RRB
        members are now claimed correctly, and 3) Virginia refund any overpayments identified
        prior to the audit period.

        DMAS Response

        For the period of the audit, DMAS concurs with the finding ofthe OIG. The MMIS
        reported these RRB members buy-in codes as those for which Virginia should receive
        50% Federal Financial Participation (FFP). This was erroneous as FFP was not
                                                                                  Page 2 of 2

Mr. Stephen Virbitsky
Apri116,2012
Page 2 of2

appropriate for these members. Virginia received 50% FFP for these RRB members and
these funds will be returned to the Centers for Medicare and Medicaid Services (CMS).

Since the end of the audit period, Virginia has reimbursed CMS the 50% FFP received
for RRB members for whom FFP was claimed inappropriately. The reimbursement
process began with January 2010. DMAS utilized data provided by CMS for buy-in
transactions for Medicare Part B premium payments to determine those RRB for whom
FFP was erroneously claimed. For the period of January through May 2010, the DMAS
Fiscal Division utilized the CARS system for the return of these funds. The Fiscal
Division corrected the status of these members as being those for which no FFP was
appropriate and then returned the funds received for those members. Beginning in June
2010, DMAS provided reimbursement to eMS by adjusting the CMS 64, also known as
the "bill," until action was completed in July of2011 to insure the MMIS reported all
RRB members buy-in transactions appropriately. Therefore Virginia does not owe any
additional funding since the end date of the audit period.

DMAS is currently researching whether any inappropriate payments were received prior
to the beginning of the audit. A determination as to whether or not RRB member's buy­
in transaction codes were reported correctly and reimbursement of funds is appropriate
prior to January 2008 is in process. OMAS will report its' findings to CMS along with any
identified inappropriate payments received.

If you have any questions, please do not hesitate to contact our Director of Internal Audit,
Paul Kirtz at (804) 225-4162.

                                          Sincerely,



                                         6!J-k1~/1J/o"
                                                    ~
                                          Cynthia B. Jones         ,0     I
                                          DMAS Director



Cc:   Scott Crawford
      Tom Edicola
      Karen Stephenson
      Paul Kirtz
